                                                                                         i1.S. Depxrtnirni of 1lumrl;lntl Security
                                                                                         Easlern Region
                                                                                         Office of Disaster Assistance Oversight
                                                                                         10 Tenth Street. Su~te750
                                                                                         Atlanta Georgia 30309




                                                February 12, 2007

MEMORANDUM FOR:                        Jeff Byard
                                       Acting Director
                                       FEMA's Transitional Recovery Office
                                       Biloxi, Mississippi

FROM:                                  C. David Kirnble
                                       Director
                                       Eastern Regional Office

SUBJECT:                               Review of Hurricnne Katrina Activities
                                       Jones C O U Mississippi
                                                     ~ ~ ,
                                       F E M Disasler 1604-DR-MS
                                       Report Number DA-07-08

We perfol~nedan interim review of debris removal costs associated with Hurricane Katrina activities
for Jones County, Mississippi. The objective of the review was to determine whether the county was
properly accouiiting for disaster-related costs and whether such costs were eligible f'or funding under
FEMA's disaster assistance programs,

The county received an award of $29.4 million from the Mississippi E~nergencyManagelnent
Agency, a FEMA grantee, for debris removal activities. The award was funded under six iarge
projects', as follows:

                                     Project                                        Amount
                                     Number                                        Awarded
                                     3005                                     $17.534,679
                                     6893                                         420,963
                                     6896      -                    --   --- --
                                                                                  602,209
                                     7684                                       8,664,986
                                     7741                                       1,995,384
                                     7760                                         11 64,400
                                     Total                                    $29,382,621




I
    Federal regulations in effect at the time of the disaster set the large project threshold at $55,000
As of October 23, 2006, the cut-off date of our review, the county had received $23.5 million of
FEMA furids and had recorded experlditures of $30.3 r~lilliorluuldtr the six projects.

We performed this review under the authority of the Inspector General Act of 1978, as amended, and
accordiilg to generally accepted government auditing standards. The review included analysis of the
county's grant accounting system? review of its disaster costs and contracting policies and
procedures, and interviews of FEMA and county officials.


                                      RESULTS OF REVIEW

The county accounted for funds on a project-by-project basis consistent with federal regulations for
large projects. Additionally, expenditures were supported with checks, invoices, and other source
documentation. Also, the county's contracts for debris removal activities were generally awarded
according to federal procurement regulations.

The county. however, did not ensure that it obtained the best price for debris contract monitors.
The county retained an engineering firm, with whom it had an existing contract to provide
engineering services for county's projects, to monltor the activities of debris contractors. Rather
than ncgotiatc lower rates for debris monitoring, the county paid the firm rates used for engineering
services. The rates ranged from $45 an hour for field monitors to $125 an hour for a project
manager.

The basic functions performed by monitors are to observe debris pickups in the field and sign trip
tickets that truckers take to disposal sites. According to federal cost principles (U.S. Office of
Management and Budget Circular A-87, 2 CFR Part 225), compensation for services should be
commensurate with the nature of the work performed. The engineering labor rates should not have
been used for debris inonitors because the two functions, construction oversight and debris
monitoring, are different. Consequcntly, thcrc is no assurance that the construction oversight rate is
conlmensurate with debris monitoring.

                                       RECOMMENDATION

We recommend that the Director of the Biloxi Transitional Recovery Office, in coordination wit11
the grantee, require the county to take immediate action to determine whether the rates charged by
the engineering firm for debris monitoring activities are reasonable, and adjust its claiin for such
services, as appropriate.
                  DISCUSSION WITH MANAGEMENT AND FOLLOW-UP
We discussed the results of our review with county, grantee, and FEMA officials on November 2 1.
2006. County officials concurred with our finding.

Please advise us within 60 days of the actions taken or planned to implement the recommendation.
Should you have any questions concerning this report, please call me at (404) 832-6702.

cc: DHS Audit Liaison
    FEMA Audit Liaison
    Deputy Director, Gulf Coast Recovery
   Chief Financial Director, Gulf Coast Recovery
